Credit Card Rate Sheet
& Initial Disclosure 04/01/2020

Platinum Rewards Visa Card
INTEREST RATES AND INTEREST CHARGES

740 +

Credit Score

Annual Percentage Rates
(APRs) for Purchases

7.99%

739 to 700

699 to 660

659 to 610

609 to 560

10.49% 10.99% 11.99% 13.49%

559 or below

15.49%

When you open your account, the applicable APR is based on creditworthiness. After that, your APR will be calculated by adding a margin to the Prime
Rate.*
Annual Percentage Rates
(APRs) for Cash Advances

Annual Percentage Rates
(APRs) for Balance Transfers
Penalty APR
How to Avoid Paying Interest on
Purchases
For Credit Card Tips from the
Consumer Financial Protection
Bureau

7.99%

10.49%

10.99%

11.99%

13.49%

15.49%

When you open your account, the applicable APR is based on creditworthiness. After that, your APR will be calculated by adding a margin to the Prime
Rate.*
7.99%

10.49%

10.99%

11.99%

13.49%

15.49%

When you open your account, the applicable APR is based on creditworthiness. After that, your APR will be calculated by adding a margin to the Prime
Rate.*
None
Your due date is approximately 25 days after the close of each billing cycle. We will not charge any interest on the portion of the purchase balance that you
pay by the due date each month.
To learn more about factors to consider when applying for or using a credit card, visit the website of the Consumer Financial Protection Bureau at
http://www.consumerfinance.gov/learnmore.
FEES

Annual Fee
Transaction Fees

None
Cash Advance
Foreign Transaction

None
Up to 2% of the US dollar amount of the foreign transaction

Late Payment
$20
Penalty Fees
How We Will Calculate Your Balance: We use a method called "average daily balance" (including new purchases). See your account agreement for more details.

Classic & Secured Visa Card
INTEREST RATES AND INTEREST CHARGES

740 +

Credit Score
Annual Percentage Rates
(APRs) for Purchases

Annual Percentage Rates
(APRs) for Cash Advances

Annual Percentage Rates
(APRs) for Balance Transfers
Penalty APR
How to Avoid Paying Interest on
Purchases
For Credit Card Tips from the
Consumer Financial Protection
Bureau

9.99%

739 to 700

699 to 660

659 to 610

609 to 560

12.49% 12.99% 13.99% 15.49%

559 or below

17.49%

When you open your account, the applicable APR is based on creditworthiness. After that, your APR will be calculated by adding a margin to the Prime
Rate.*
9.99%

12.49%

12.99%

13.99%

15.49%

17.49%

When you open your account, the applicable APR is based on creditworthiness. After that, your APR will be calculated by adding a margin to the Prime
Rate.*
9.99%

12.49%

12.99%

13.99%

15.49%

17.49%

When you open your account, the applicable APR is based on creditworthiness. After that, your APR will be calculated by adding a margin to the Prime
Rate.*
None
Your due date is approximately 25 days after the close of each billing cycle. We will not charge any interest on the portion of the purchase balance that you
pay by the due date each month.
To learn more about factors to consider when applying for or using a credit card, visit the website of the Consumer Financial Protection Bureau at
http://www.consumerfinance.gov/learnmore.
FEES

Annual Fee
Transaction Fees

None
Cash Advance
Foreign Transaction

Penalty Fees

Late Payment

None
Up to 2% of the US dollar amount of the foreign transaction
$20

How We Will Calculate Your Balance: We use a method called "average daily balance" (including new purchases). See your account agreement for more details.

Additional Information
Variable Rate Information:* The index used to determine the U.S. Prime Rate is published in The Wall Street Journal (Western Edition) on the third (3rd) Tuesday of March, June, September,
and December of each calendar year. If the third (3rd) Tuesday is a holiday, we will use the Prime Rate published the next day. If more than one Prime Rate is published we may choose the
highest rate. If The Wall Street Journal (Western Edition) ceases publication or ceases to publish the Prime Rate, we reserve the right to use the Prime Rate published in any other newspaper
of general circulation, or we may substitute a similar reference at our sole discretion. We may change the above rates, fees, and other cost information at any time in accordance with
applicable law, along with the applicable Credit Account Agreement and Disclosure, that will be sent to you.
Margins for APR's:
Platinum Rewards Visa Card - 4.74%, 7.24%, 7.74%, 8.74%, 10.24%, and 12.24% respectively.
Classic and Secured Visa Cards - 6.74%, 9.24%, 9.74%, 10.74%, 12.24%, and 14.24% respectively.
We reserve the right to amend the Visa Credit Card Agreement as permitted by law. The above rates and fees are current as of 04/01/2020

